APPENDIX

Table of Contents
Appendix A

United States v. Gray,
No. 2:95-cr-00324-JAD, 2018 WL 3058868
(D. Nev. June 20, 2018)

Appendix B

United States v. Gray,
No. 2:95-cr-00324-JAD, Order, ECF 52
(D. Nev. July 10, 2018)

Appendix C

United States v. Gray,
808 F. App’x 540
(9th Cir. 2020) (unpublished)

Appendix D

United States v. Gray,
No. 18-16399, Order, App. Dkt. 41
(9th Cir. Aug. 21, 2020)

United States v. Gray, Not Reported in Fed. Supp. (2018)

2018 WL 3058868
Only the Westlaw citation is currently available.
United States District Court, D. Nevada.

he wins that battle, he loses the war. Because Gray's instant
offense and his prior convictions for Tennessee armed robbery
qualify as crimes of violence under the Guidelines' force
clause, I ultimately deny his § 2255 motion to vacate his
sentence. 4

UNITED STATES of America, Respondent/Plaintiff
v.
Barry Addison GRAY, Petitioner/Defendant
Case No.: 2:95–cr–00324–JAD
|
Signed 06/20/2018

Order Granting Petitioner's Motion for Reconsideration
but Denying His § 2255 Motion to Vacate Sentence

Background
In 1996, Gray pled guilty to one count of federal bank robbery
with a weapon under 18 U.S.C. § 2113(a) and (d). 5 His list of
prior offenses is extensive, so I focus on the ones at issue here.
In 1980, Gray was convicted by a jury of armed robbery in
Tennessee and sentenced to ten years in prison. 6 In 1985, he
was convicted of two counts of Tennessee armed robbery and
one count of aggravated assault. 7 For the robbery offenses,
Gray received two life sentences as a habitual criminal. 8 He
was also sentenced to a 10–year sentence for the aggravated-

[ECF Nos. 35, 38]
Jennifer A. Dorsey, U.S. District Judge
*1 When Barry Addison Gray was sentenced for bank
robbery with a weapon after his 1996 guilty plea, the district
judge found that he qualified as a career offender under
the United States Sentencing Guidelines § 4B1.2(a)(2) (the
“residual clause”) and sentenced him to 235 months in prison.
More than 20 years later, Gray moved to vacate his sentence
under 28 U.S.C. § 2255, arguing that the Supreme Court's
1

2015 decision in Johnson v. United States —which ruled that
the residual clause in the Armed Career Criminal Act (ACCA)
is unconstitutional—invalidates the identical residual clause
in the Guidelines. I stayed briefing while the Supreme Court
considered Beckles v. United States, 2 in which it ultimately
held that the advisory Guidelines are not subject to the same
void-for-vagueness challenges that invalidated the ACCA's
residual clause.
After I lifted the stay, I denied Gray's petition, ruling
that Beckles defeated his claim. 3 Gray now moves for
reconsideration. He contends that Beckles is limited to the
advisory Guidelines, and because he was sentenced long ago
while the Guidelines were mandatory, Beckles doesn't apply.
I ordered supplemental briefs addressing whether Gray's prior
convictions qualify him as a career offender under Guidelines
§ 4B1.2(a)(1) (the force clause) or the remainder of § 4B1.2(a)
(2) (the enumerated-offenses clause). Having now reviewed
those briefs, I find that Beckles doesn't apply to Gray's
petition, so I grant his motion for reconsideration. Although

assault conviction to run consecutive to his life sentences. 9
He later escaped from Tennessee's custody, and a warrant
for his arrest was outstanding when he was sentenced in
this case. 10 In 1989, Gray picked up another armed-robbery
conviction, this time in Florida, for which he received a life
sentence. 11
*2 In Gray's presentence report, probation concluded that his
1980 and 1985 Tennessee armed-robbery convictions and his
Florida armed-robbery conviction constituted prior violent
felony convictions under § 4B1.1, so Gray qualified for a
career-offender enhancement. The report calculated Gray's
guideline range as 188–235 months in custody, based on
a total offense level of 31 and a criminal history category
of VI. 12 According to Gray, without the career-offender
enhancement, his guideline range would have been 120–150
months based on a total offense level of 27 and criminal
history category of V. 13 The sentencing judge imposed the
maximum sentence of 235 months. 14

Discussion
A. Legal landscape
In Johnson, the Supreme Court tested the constitutionality of
the residual clause of 18 U.S.C. § 924(e), known as the Armed
Career Criminal Act (ACCA). Under the ACCA, “a defendant
convicted of being a felon in possession of a firearm faces

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-001

1

United States v. Gray, Not Reported in Fed. Supp. (2018)

more severe punishment if he has three or more previous
convictions for a ‘violent felony,’ a term defined to include
any felony that ‘involves conduct that presents a serious
potential risk of physical injury to another.’ ” 15 The High
Court evaluated the clause's violent-felony definition using
the “framework known as the categorical approach,” which
“assesses whether a crime qualifies as a violent felony ‘in
terms of how the law defines the offense and not in terms
of how an individual offender might have committed it on
a particular occasion.’ ” 16 It concluded that “the residual
clause produces more unpredictability and arbitrariness than
the Due Process Clause tolerates” and held it void for
vagueness. 17 In Welch v. United States, the Supreme Court
held that Johnson created a new substantive rule that applies
retroactively to cases on collateral review. 18
While Johnson answered one question, it prompted a flood
of others. Many federal statutes, as well as the Guidelines
at issue here, have language that is substantially similar or
identical to the ACCA's now-invalid residual clause. Relying
on Johnson, federal prisoners throughout the country fled
to the courts to challenge sentences imposed under similar
clauses.
Beckles is one such case. In it, the petitioner challenged a
2007 sentence that was enhanced under the identical residual
clause in the Guidelines, contending that the clause was
void after Johnson. 19 The Supreme Court explained that
two types of criminal laws are subject to void-for-vagueness
challenges: “laws that define criminal offenses and laws that
fix the permissible sentences for criminal offenses.” 20 But
the advisory Guidelines that Beckles was sentenced under
didn't fix criminal sentences because judges have discretion
to depart from the Guidelines and consider other factors to
determine appropriate sentence ranges. 21 The Court held that
the advisory Guidelines are therefore not subject to void-forvagueness challenges.
The Supreme Court expanded its Johnson holding to
immigration law this term in Sessions v. Dimaya. 22 The
petitioner challenged 18 U.S.C. § 16(b), a section of the
Immigration and Naturalization Act (INA) containing a
residual clause that is virtually identical to the clause
struck down in Johnson. The Court determined that a
“straightforward application” of Johnson necessitated that §
16(b) also be invalidated.

B. Beckles does not foreclose Gray's petition.
*3 The parties dispute whether Beckles controls this case.
Gray contends that it doesn't because he was sentenced prior
to 2005, when the Supreme Court, in Booker v. United States,
ruled that the then-mandatory Guidelines were incompatible
with the Sixth Amendment. 23 Because Beckles relied on the
advisory nature of the Guidelines to determine that they were
not subject to void-for-vagueness challenges, Gray argues
that his challenge to the mandatory Guidelines does not
suffer from the same infirmities. The government disagrees,
arguing that the analysis in Beckles is equally applicable to
the pre-Booker mandatory guidelines. As support, it cites
to Eleventh Circuit precedent holding that the mandatory
Guidelines are not subject to Johnson challenges.
In In re Griffin, the Eleventh Circuit held that “[t]he
Guidelines—whether mandatory or advisory—cannot be
unconstitutionally vague because they do not establish the
illegality of any conduct and are designed to assist and limit
the discretion of the sentencing judge.” 24 The Eleventh
Circuit also pointed out that regardless of whether the
Guidelines are advisory or mandatory, “the district court, even
without the invalidated residual clause, could still impose a
sentence within the same statutory penalty range and indeed
the same sentence as before. In fact, in former mandatory
guideline cases, the resentencing would be under an even
more discretionary advisory system that would permit the
district court to impose the same sentence.” 25
I decline to adopt the Eleventh Circuit's reasoning. In Beckles,
the Supreme Court made clear that vagueness challenges are
applicable to laws that fix criminal sentences. 26 Beckles's
finding that the advisory guidelines did not “fix” criminal
sentences expressly depended on the fact that judges applying
the advisory Guidelines had discretion to depart from
them and were required to consider non-Guideline factors
when imposing their sentences. That discretion did not
exist pre-Booker, when the Guidelines were considered
mandatory. 27 The same analysis applies here. Because the
pre-Booker Guidelines were “mandatory and binding on all
judges” and had “the force and effect of laws,” 28 they
effectively fixed criminal sentences and are therefore subject
to vagueness challenges, like this one that Gray now raises.
The Ninth Circuit recognized before Booker that the
Sentencing Guidelines could be challenged on vagueness
grounds. 29 While Beckles has muddled up the law in this

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-002

2

United States v. Gray, Not Reported in Fed. Supp. (2018)

area, it did not clearly invalidate Ninth Circuit precedent
allowing Gray's challenge. So, I find that Beckles is not
dispositive of Gray's § 2255 motion. I therefore grant his
motion for reconsideration of my prior ruling, vacate that
order, and evaluate the merits of his petition.
C. Gray's petition is timely.
*4 Before I get to the petition's merits, I must address the
government's contention that Gray's petition is untimely. Gray
filed his petition under the authority of 28 U.S.C. § 2255(f)
(3), which starts a one-year statute of limitations period from
“the date on which the right asserted was initially recognized
by the Supreme Court, if that right has been newly recognized
by the Supreme Court and made retroactively applicable to
cases on collateral review.” 30 Gray contends that the right he
asserts stems from Johnson, which was made retroactive to
cases on collateral review in Welch.
The government disagrees. It asks me to narrowly interpret
the right established in Johnson as the right to challenge
sentences imposed under the ACCA's residual clause—not to
sentences imposed under identical language. The government
contends that Justice Sotomayor's concurrence in Beckles
acknowledging that the majority left open the question
of whether vagueness challenges may be brought against
mandatory Guidelines means that the Supreme Court could
not have recognized a new right to challenge them. 31
But the Supreme Court's approach in Dimaya—when it struck
down the INA's residual clause—indicates that the answer
is not as simple as the government suggests. Writing for the
majority of the Court, Justice Kagan explained that “Johnson
is a straightforward decision, with equally straightforward
application” to the INA. 32 The High Court found that the
INA's residual clause suffered from the same infirmities as
the ACCA's under the same analysis. 33 While the Dimaya
Court did not have to grapple with the extra procedural
challenges imposed by AEDPA (it was decided on direct
appeal) the decision does at least tacitly suggest that Johnson's
substantive rule is broader than its narrow holding that the
ACCA's residual clause is unconstitutional.
I am persuaded by the analysis of Fourth Circuit Judge
Gregory, who dissented in United States v. Brown, a case
holding that the right to challenge the mandatory Guidelines
is different from the right to challenge the ACCA's residual
clause under Johnson. 34 “A newly recognized right,” he

explained, “is more sensibly read to include the reasoning
and principles that explain it.” 35 I am also persuaded by
the fact that the Ninth Circuit has consistently analyzed
the ACCA's residual clause and the Guidelines' residual
clause identically. 36 It would be illogical to treat the right
to challenge the ACCA's residual clause differently from
the right to challenge the same clause in the mandatory
Guidelines when they both fix sentences in the same manner.
So, I conclude that Johnson created a new, retroactive right
that Gray can rely on to challenge his conviction. 37 Because
he filed his petition within one year of Johnson, Gray's
challenge is timely. I thus turn to the merits of that challenge.
D. Guideline § 4B1.2(1)(ii) is void for vagueness.
*5 The Guidelines' residual clause suffers from the
same constitutional infirmities as the ACCA's. Because the
pre-Booker guidelines had the force and effect of law and
narrowly prescribed when a judge could depart from the
Guidelines, those Guidelines dictated fixed sentencing ranges
that judges were required to impose. The same factors leading
the Supreme Court to determine that the residual clauses
in the ACCA and the INA are unconstitutional are equally
applicable here. So, I conclude that the residual clause of
the United States Sentencing Guidelines, as applied when
they were mandatory, is unconstitutional under Johnson. 38
Unfortunately for Gray, however, that conclusion affords
him no relief because his crimes—the federal-bank-robbery
offense that underlies this conviction and his convictions for
Tennessee armed robbery—qualify as violent ones under the
Guidelines' force clause.
E. Gray's offenses are crimes of violence under the force
clause.
1. Legal standard
A defendant qualifies for a career-offender enhancement
under the Guidelines if he is at least 18 years old at the time of
the instant offense, the instant offense is a qualifying felony,
and he had at least two prior qualifying felony convictions. 39
A felony is a qualifying one if it is a crime of violence under §
4B1.2(a)(1) (the force clause) or the remainder of § 4B1.2(a)
(2) (the enumerated-offenses clause).
The still-valid force clause 40 in the Guidelines defines a
crime of violence as one that “has as an element the use,
attempted use, or threatened use of physical force against

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-003

3

United States v. Gray, Not Reported in Fed. Supp. (2018)

the person of another.” 41 In Johnson, the High Court
evaluated the ACCA's identical force clause definition using
the categorical approach. Under the categorical approach,
courts look only to the statutory elements of the offense
and do not consider the defendant's conduct in a particular
case. 42 “If the statute of conviction ‘sweeps more broadly
than the generic crime, a conviction under that law cannot
count as [a qualifying] predicate, even if the defendant
actually committed the offense in its generic form.’ ” 43
The Ninth Circuit has held that “the definition of a crime
of violence under the Guidelines and the definition of a
violent felony under the ACCA are ‘identical.’ ” 44 I thus
apply the categorical approach to determine whether Gray's
offenses qualify as crimes of violence under the mandatory
Guidelines. 45
2. Gray's federal-bank-robbery conviction is a crime
of violence.
Gray pleaded guilty to federal bank robbery under 18 U.S.C.
§ 2113(a) and (d), which requires that the defendant take
property or money “by force or violence, or by intimidation”
46

to be found guilty of the offense. Gray focuses on the latter
term, “intimidation,” to argue that § 2113(a) can be violated
by a defendant who did not intend to put someone in fear of
physical injury.
*6 But the Ninth Circuit held in United States v. Selfa
that § 2113(a) qualifies as a crime of violence. 47 The court
reasoned that “intimidation” in the context of § 2113(a)
means that the defendant placed his victim not just in fear
generally, but fear of “bodily harm”—in other words, a threat
of “physical force against” his person. Although Gray is
right that the Supreme Court has handed down a number of
decisions that complicate this area of law, the Ninth Circuit
has since affirmed Selfa's holding in various unpublished

Gray contends that his 1980 and 1985 convictions for
Tennessee armed robbery do not qualify as crimes of violence.
But the Sixth Circuit has persuasively ruled that the Tennessee
robbery statute, as interpreted by the Tennessee Supreme
Court, qualifies as a crime of violence under the ACCA's
force clause, and I adopt its reasoning in this case. In United
States v. Mitchell, the Sixth Circuit explained that robbery
in Tennessee “involves the ‘felonious’ (under the former
language) and ‘intentional’ (under the present language)
taking of property from the person or another ‘by violence
or putting the person in fear.’ ” 50 The Tennessee Supreme
Court has interpreted “violence” as expressed in both versions
of the statute as “physical force unlawfully exercised so as to
injure, damage, or abuse.” 51 It has also clarified that that “the
‘fear constituting an element of robbery is a fear of bodily
injury and of present personal peril from violence offered
or impending.” 52 With those interpretations in mind, the
Mitchell Court held that “the element of violence contained in
the robbery statute thus satisfies [the ACCA's] requirement of
the ‘use, attempted use, or threatened use of physical force.’
” 53 The Sixth Circuit has also affirmed post-Johnson that
Mitchell is still good law. 54 With no Ninth Circuit authority
to the contrary, I agree with the Sixth Circuit's determination
and hold that Tennessee armed robbery is a crime of violence
under the force clause. 55 Gray's 1980 and 1985 convictions
for Tennessee armed robbery thus qualified him for careeroffender sentencing under the Guidelines.
3. Harmless error
*7 Gray contends that if I find only one of his prior offenses
no longer qualifies as a crime of violence post-Johnson,
then I must vacate his sentence because “the record is
unclear as to which offenses the government relied on at
the time of sentencing.” 56 But his argument ignores the
harmless-error analysis that the Ninth Circuit has embraced

decisions. 48 In one of those cases, United States v. Pritchard,
the Ninth Circuit explicitly rejected Gray's intent argument,
holding that “a conviction under § 2113(a) is a general intent
crime, and therefore requires that any ‘intimidation’ and

in Johnson cases. 57 Because I find that Gray's instant armedrobbery offense and his 1980 and 1985 convictions for
Tennessee armed robbery are crimes of violence, Gray was
not prejudiced by the sentencing judge's consideration of his

threatened use of force be ‘intentional.’ ” 49 While Pritchard
is unpublished, I find its reasoning persuasive and likely to
be embraced by the court in future published decisions, so I
adopt it here.

other prior convictions, and any error was harmless. 58

3. Tennessee armed robbery is a crime of violence.

Conclusion
Accordingly, IT IS HEREBY ORDERED that Barry
Addison Gray's motion for reconsideration [ECF No. 38] is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-004

4

United States v. Gray, Not Reported in Fed. Supp. (2018)

GRANTED, and his motion to vacate his sentence [ECF No.
35] is DENIED.

All Citations
Not Reported in Fed. Supp., 2018 WL 3058868

Footnotes
1
2
3
4

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

25
26
27
28
29

Johnson v. United States, 135 S. Ct. 2551 (2015).
Beckles v. United States, 137 S. Ct. 886 (2017).
ECF No. 37.
Because this motion turns on legal questions and does not require the resolution of disputed facts, I find it
suitable for disposition without a hearing. See Raines v. United States, 423 F.2d 526, 529 (4th Cir. 1970)
(holding that it is within a district court's discretion to address purely legal issues under § 2255 without a
hearing).
Gray's Presentence Investigation Report (PSR), ECF No. 50 at 1.
Id. at 7.
Id. at 8.
Id.
Id.
Id.
Id.
Id. at 5–6, 9.
ECF No. 35 at 3.
ECF No. 16.
Johnson, 135 S. Ct. at 2555 (quoting 18 U.S.C. § 924(e)(2)(B)).
Id. at 2557 (quoting Begay v. United States, 553 U.S. 137, 141 (2008)).
Id. at 2558.
Welch v. United States, 136 S. Ct. 1257 (2016).
Beckles, 137 S. Ct. at 890.
Id. at 892 (emphasis in original).
Id. at 894–95.
Sessions v. Dimaya, 138 S. Ct. 1204 (2018).
Booker v. United States, 543 U.S. 220 (2005).
In re Griffin, 823 F.3d 1350, 1354 (11th Cir. 2016); see also Lewis v. United States, 2018 WL 2128612, at *1
(11th Cir. May 8, 2018) (affirming that Beckles doesn't alter the court's conclusion in In re Griffin); but see In
re Sapp, 827 F.3d 1334, 1336–41 (11th Cir. 2016) (Circuit Judges Jordon, Rosenbaum, and Pryor specially
concurring in a judgment denying a § 2255 motion to explain why they “believe In re Griffin is deeply flawed
and wrongly decided”).
Id. at 1355.
Beckles, 137 S. Ct. at 892.
Booker, 542 U.S. at 234.
Id. at 233–34.
See United States v. Johnson, 130 F.3d 1352 (9th Cir. 1997) (“Unconstitutional vagueness challenges to the
Sentencing Guidelines have been questioned as theoretically unsound ... but we have countenanced such
challenges in deference to the Supreme Court's declaration that ‘vague sentencing provisions may pose
constitutional questions if do not state with sufficient clarity the consequences of violating a given criminal
statute.’ ”) (quoting United States v. Batchelder, 442 U.S. 114, 123 (1979)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-005

5

United States v. Gray, Not Reported in Fed. Supp. (2018)

30
31

32
33
34
35
36
37

38

39
40
41
42

43
44
45
46

28 U.S.C. § 2255(f)(3).
ECF No. 39 at 5 (citing Beckles, 137 S. Ct. at 903 n.4 (“The Court's adherence to the formalistic distinction
between mandatory and advisory rules at least leaves open the question whether the defendants sentenced
to terms of imprisonment before our decision in Booker—that is, during the period in which the Guidelines did
fix the permissible range of sentences—may mount vagueness attacks on their sentences.”) (Sotomayor, J.,
concurring) (citations and internal quotations omitted) ).
Dimaya, 138 S. Ct. at 1213.
Id.
United States v. Brown, 868 F.3d 297 (2017).
Id. at 304.
See United States v. Robinson, 869 F.3d 933, 937 n.5 (9th Cir. 2017) (citing United States v. Ladwig, 432
F.3d 1001, 1005 n.9 (9th Cir. 2005)).
I previously held that a petitioner's Johnson challenge of a sentence imposed under 18 U.S.C. § 924(c), which
included another residual clause similar to the ACCA's, stemmed from the new right created in Johnson.
United States v. Bonaparte, 2017 WL 3159984, at *2 (D. Nev. July 25, 2017). I also recognize that a
substantial number of courts, including some circuit courts and district courts in this circuit, have held that
Johnson did not create a new right to challenge sentences imposed under the mandatory Guidelines. See,
e.g., Brown, 868 F.3d at 310; Raybon v. United States, 867 F.3d 625, 630 (6th Cir. 2017); United States v.
Greer, 881 F.d 1241, 1247 (10th Cir. 2018), petition for cert. filed, No. 17–8775; United States v. Patrick,
2017 WL 4683929, at *2–6 (D. Or. Oct. 18, 2017); Fox v. United States, 2018 WL 650200, at *6 (D. Haw.
Jan. 31, 2018); United States v. Gildersleeve, 2017 WL 5895135, at *3 (D. Or. Nov. 28, 2017); Mitchell v.
United States, 2017 WL 2275092, at *3–5 (W.D. Va. May 24, 2017). I am not persuaded by these non-binding
authorities and find the opinions in the minority more convincing. See, e.g., Cross v. United States, ––– F.3d
––––, 2018 WL 2730774, at *3 (7th Cir. June 7, 2018) (holding that Johnson established “a right not to have his
sentence dictated by the unconstitutionally vague language of the mandatory residual clause,” and because
petitioners' challenges to sentences imposed under the mandatory Guidelines “assert precisely that right,”
their § 2255 motions were timely); United States v. Meza, 2018 WL 2048899, at *5–6 (D. Mont. May 2, 2018)
(holding that Johnson created a new right to challenge residual clause under 18 U.S.C. § 924(c)); United
States v. Savage, 231 F. Supp. 3d 542, 569–74 (C.D. Cal. 2017) (holding, pre-Beckles, that a vagueness
challenge to the Guidelines asserts the new right created in Johnson).
See, e.g., United States v. Mock, 2017 WL 2727095, at *3–4 (E.D. Wash. June 23, 2017) (applying Johnson
to mandatory Guidelines); Cheers v. United States, 269 F. Supp. 3d 773, 777 (N.D. Miss. 2017) (same); Reid
v. United States, 2017 WL 2221188, at *4 (D. Mass. May 18, 2017) (holding that the mandatory Guidelines are
unconstitutionally vague; United States v. Parks, 2017 WL 3732078 at *5–6 (D. Colo. Aug. 1, 2017) (same).
U.S.S.G. § 4B1.1(a).
Neither party contends that Gray's offenses qualify as crimes of violence under the enumerated-offenses
clause, so I focus on the force clause.
U.S.S.G. § 4B1.2(a)(1).
Johnson, 135 S.Ct. at 2557 (“Under the categorical approach, a court assesses whether a crime qualifies as
a violent felony ‘in terms of how the law defines the offense and not in terms of how an individual offender
might have committed it on a particular occasion.’ ”) (quoting Begay, 553 U.S. at 141).
U.S. v. Caceres–Olla, 738 F.3d 1051, 1054 (2013) (quoting Descamps v. United States, 570 U.S. 254, 260
(2013)).
Robinson, 869 F.3d at 937 n.5 (citing Ladwig, 432 F.3d at 1005 n.9).
See U.S. v. Quintero–Junco, 754 F.3d 746, 751 (9th Cir. 2014).
The statute states: “(a) Whoever, by force and violence, or by intimidation, takes, or attempts to take, from
the person or presence of another any property or money or any other thing of value belonging to, or in
the care, custody, control, management, or possession of, any bank, credit union, or any savings and loan

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-006

6

United States v. Gray, Not Reported in Fed. Supp. (2018)

47

48

49
50
51
52
53
54

55

56
57

58

association; ... shall be fined not more than $5,000 or imprisoned not more than twenty years, or both.” 18
U.S.C. § 2113(a).
United States v. Selfa, 918 F.2d 749, 751 (9th Cir. 1990) (holding that “persons convicted of robbing a bank ‘by
force and violence’ and ‘intimidation’ under 18 U.S.C. § 2113(a) have been convicted of a ‘crime of violence’
within the meaning of Guideline Section 4B1.1”).
See, e.g., United States v. Steppes, 651 F. App'x 697, 698 (9th Cir. 2016) (unpublished); United States v.
Howard, 650 F. App'x 466, 468 (th Cir. 2016) (holding that Hobbs Act robbery qualifies as a crime of violence
under 18 U.S.C. § 924(c) by comparing it to federal bank robbery under § 2113(a) and relying on Selfa);
United States v. Pritchard, 692 F. App'x 349, 351 (9th Cir. 2017) (noting that the Ninth Circuit has “twice
held that armed bank robbery in violation of § 2113(a) qualifies as a crime of violence [and the defendant]
fails to show that any intervening authority is ‘clearly irreconcilable with’ or has overruled these authorities.”)
(citations omitted).
Pritchard, 692 F. App'x at 352.
United States v. Mitchell, 743 F.3d 1054, 1059 (6th Cir. 2014).
State v. Fitz, 19 S.W.3d 213, 214 (Tenn. 2000).
State v. Taylor, 771 S.W.2d 387, 393 (Tenn. 1989).
Mitchell, 743 F.3d at 1059.
United States v. Priddy, 808 F.3d 676, 686 (6th Cir. 2015), abrogated on other grounds by United States
v. Stitt, 860 F.3d 854 (6th Cir. 2017) (“[E]ven in light of the Supreme Court's invalidation of the [ACCA's]
residual clause, this Court's determination remains unchanged that under the categorical approach, robbery
in Tennessee is a predicate offense under the use-of-force clause.”).
I've considered the Ninth Circuit's recent ruling in United States v. Edling, No. 16–10457 (9th Cir. June 8,
2018), which held that Nevada's robbery statute doesn't qualify as a crime of violence under the Guidelines.
The Edling panel found that the statute allows conviction if a defendant harms or threatens harm to a person's
property, which does not constitute a threat of physical injury to a person as required by the Guidelines' force
clause. Because Tennessee's statute does require a threat of violence or fear of bodily injury to a person,
not merely his property, Edling does not alter my analysis.
ECF No. 48 at 3–4.
United States v. Geozos, 870 F.3d 890, 897 (9th Cir. 2017) (citing United States v. Montalvo, 331 F.3d 1052,
1057–58 (9th Cir. 2003) (per curiam) (“In other words, are there three convictions that support an ACCA
enhancement under one of the clauses of the ACCA that survived Johnson [ ]? If so, then the Johnson [ ]
error did not prejudice Defendant, and he is not entitled to relief.”) ).
Recently, the Ninth Circuit held that Florida armed robbery is not a crime of violence under the ACCA. See
United States v. Geozos, 870 F.3d 890, 901 (9th Cir. 2017). But that determination does not entitle Gray to
relief. Although his criminal history boasts Florida-armed-robbery convictions, too, because his Tennessee
armed-robbery priors qualify, I need not reach the Florida ones.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. A-007

7

Case 2:95-cr-00324-JAD Document 52 Filed 07/10/18 Page 1 of 2



81,7('67$7(6',675,&7&2857



',675,&72)1(9$'$


8QLWHG6WDWHVRI$PHULFD



&DVH1RFU-$'

5HVSRQGHQW3ODLQWLII




Y



%DUU\$GGLVRQ*UD\

2UGHU*UDQWLQJ&HUWLILFDWHRI
$SSHDODELOLW\

3HWLWLRQHU'HIHQGDQW




:KHQ%DUU\$GGLVRQ*UD\ZDVVHQWHQFHGIRUEDQNUREEHU\ZLWKDZHDSRQDIWHUKLV

 JXLOW\SOHDWKHGLVWULFWMXGJHIRXQGWKDWKHTXDOLILHGDVDFDUHHURIIHQGHUXQGHUWKH8QLWHG6WDWHV
 6HQWHQFLQJ*XLGHOLQHV  % D  WKH³UHVLGXDOFODXVH´ DQGVHQWHQFHGKLPWRPRQWKVLQ
 SULVRQ *UD\PRYHGWRYDFDWHKLVVHQWHQFHXQGHU86&  DUJXLQJWKDWWKH6XSUHPH
 &RXUW¶VGHFLVLRQLQJohnson v. United States ²ZKLFKUXOHGWKDWWKHUHVLGXDOFODXVHLQ WKH
 $UPHG&DUHHU&ULPLQDO$FW $&&$ LVXQFRQVWLWXWLRQDO²LQYDOLGDWHVWKHLGHQWLFDOUHVLGXDO
 FODXVHLQWKH*XLGHOLQHV ,UHFHQWO\DJUHHGZLWK*UD\ILQGLQJWKDWWKHUHVLGXDOFODXVHLQWKH
 PDQGDWRU\*XLGHOLQHVWKDWKHZDVVHQWHQFHGXQGHULVXQFRQVWLWXWLRQDO+RZHYHU,GHQLHGKLV
 PRWLRQWRYDFDWHEHFDXVH,FRQFOXGHGWKDWKLVFRQYLFWLRQVIRU7HQQHVVHHDUPHGUREEHU\TXDOLI\
 DVFULPHVRIYLROHQFHXQGHUWKHVWLOOYDOLGIRUFHFODXVH 


7RDSSHDOWKDWRUGHU*UD\QHHGVDFHUWLILFDWHRIDSSHDODELOLW\ IURPDFLUFXLWRUGLVWULFW

 MXGJH  ,QGHFLGLQJZKHWKHUWRJUDQWRQH,FRQVLGHULI³UHDVRQDEOHMXULVWVFRXOGGHEDWHZKHWKHU
 RUIRUWKDWPDWWHUDJUHHWKDW WKHSHWLWLRQVKRXOGKDYHEHHQUHVROYHGLQDGLIIHUHQWPDQQHURU










Johnson v. United States6&W  



(&)1R



86&  F  % )HG5$SS3 E  WK&LU5 D 


App. B-001

Case 2:95-cr-00324-JAD Document 52 Filed 07/10/18 Page 2 of 2

 WKDWWKHLVVXHVSUHVHQWHGZHUHDGHTXDWHWRGHVHUYHHQFRXUDJHPHQWWRSURFHHGIXUWKHU´  7KLV
 VWDQGDUGLV³OHQLHQW´ 
$OWKRXJK,KDYHHQGHDYRUHGWRVWD\WUXHWR1LQWK&LUFXLWJXLGDQFHLQP\UXOLQJZKHQ



 DSSO\LQJWKH³KRSHOHVVWDQJOH´³RILQFRQVLVWHQWFDVHODZ´WKDWPDNHVXSWKHFDWHJRULFDO WHVW
 UHDVRQDEOHMXULVWVUHDFKYDU\LQJFRQFOXVLRQV  7KH1LQWK&LUFXLWKDVQRW\HWGHFLGHG ZKHWKHUWKH
 UHVLGXDOFODXVHLQWKHSUHBooker 6HQWHQFLQJ*XLGHOLQHV LV XQFRQVWLWXWLRQDOXQGHUJohnsonRU
 ZKHWKHU7HQQHVVHHDUPHGUREEHU\LVD FULPHRIYLROHQFH,WKXVJUDQW*UD\DFHUWLILFDWHRI
 DSSHDODELOLW\


&RQFOXVLRQ



$FFRUGLQJO\,7,6+(5(%<25'(5('$'-8'*('$1''(&5(('WKDWD

 FHUWLILFDWHRIDSSHDODELOLW\LV*5$17('
 'DWHG-XO\
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
BBBBBBBBBBBBB
BBBBBBBB
BBBBB
B BBBBBB
86'LVWULFW-XGJH-HQQLIHU$'RUVH\
 'LV
LLVVWULFW
V W-XGJH-H
W
W
HQQLIIHU$

















Slack v. McDaniel86±   TXRWDWLRQVRPLWWHG 





Hayward v. Marshall)G WK&LU  HQEDQF 





United States v. Ladwig)6XSS G (':DVK  QRWLQJWKDWWKLVWHVW³KDV
VW\PLHGODZFOHUNVDQGMXGJHVDOLNHLQDPRUDVVRILQFRQVLVWHQWFDVHODZ´




App. B-002

United States v. Gray, 808 Fed.Appx. 540 (2020)

Appeal from the United States District Court for the District
of Nevada, Jennifer A. Dorsey, District Judge, Presiding, D.C.
Nos. 2:16-cv-01476-JAD, 2:95-cr-00324-JAD-1

808 Fed.Appx. 540 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

Before: MILLER and HUNSAKER, Circuit Judges, and
SCHILTZ, ** District Judge.

*541 MEMORANDUM ***

UNITED STATES of America, Plaintiff-Appellee,
v.
Barry Addison GRAY, Defendant-Appellant.
No. 18-16399
|
Submitted June 8, 2020 * San Francisco, California
|
FILED June 10, 2020
Attorneys and Law Firms
Adam McMeen Flake, Assistant U.S. Attorney, USLV Office of the U.S. Attorney, Las Vegas, NV, Elizabeth Olson
White, Esquire, Assistant U.S. Attorney, USRE - Office of the
US Attorney, Reno, NV, for Plaintiff-Appellee
Wendi L. Overmyer, Assistant Federal Public Defender,
Federal Public Defender's Office Las Vegas, Las Vegas, NV,
for Defendant-Appellant

Barry Addison Gray appeals the denial of his 28 U.S.C. §
2255 motion. After conducting a de novo review, we affirm
the judgment of the district court, as Gray’s motion is clearly
untimely under United States v. Blackstone, 903 F.3d 1020,
1026-28 (9th Cir. 2018). See also United States v. Olsen,
704 F.3d 1172, 1178 (9th Cir. 2013) (standard of review);
Dunne v. Henman, 875 F.2d 244, 247 (9th Cir. 1989) (“[W]e
can affirm on any basis shown by the record.”) (citation
omitted). Blackstone binds this panel, as it is not “clearly
irreconcilable” with the Supreme Court’s decision in United
States v. Davis, ––– U.S. ––––, 139 S. Ct. 2319, 204 L.Ed.2d
757 (2019). See United States v. Shelby, 939 F.3d 975, 978
(9th Cir. 2019) (“A three-judge panel can only decline to
apply prior Circuit precedent ‘clearly irreconcilable’ with a
subsequent Supreme Court decision.”) (citation omitted).
AFFIRMED.
All Citations
808 Fed.Appx. 540 (Mem)

Footnotes
*
**
***

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App.
P. 34(a)(2).
The Honorable Patrick J. Schiltz, United States District Judge for the District of Minnesota, sitting by
designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit
Rule 36-3.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. C-001

1

Case: 18-16399, 08/21/2020, ID: 11797707, DktEntry: 41, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

18-16399

D.C. Nos.

2:16-cv-01476-JAD
2:95-cr-00324-JAD-1
District of Nevada,
Las Vegas

BARRY ADDISON GRAY,
ORDER
Defendant-Appellant.
Before: MILLER and HUNSAKER, Circuit Judges, and SCHILTZ,* District
Judge.
Judges Miller and Hunsaker have voted to deny the petition for rehearing en
banc, and Judge Schiltz so recommends.
The full court has been advised of the petition for rehearing en banc and no
judge of the court has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35. The petition for rehearing en banc, filed on July 24, 2020, is
DENIED.

*

The Honorable Patrick J. Schiltz, United States District Judge for the
District of Minnesota, sitting by designation.

App. D-001

